App. 1
APPENDIX A
United States Court of Appeals
For the First Circuit
-----------------------------------------------------------------------

No. 19-2028
IN RE: THE FINANCIAL OVERSIGHT AND
MANAGEMENT BOARD FOR PUERTO RICO, AS
REPRESENTATIVE FOR THE COMMONWEALTH
OF PUERTO RICO; THE FINANCIAL OVERSIGHT
AND MANAGEMENT BOARD FOR PUERTO RICO,
AS REPRESENTATIVE FOR THE PUERTO RICO
HIGHWAYS AND TRANSPORTATION AUTHORITY;
THE FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD FOR PUERTO RICO, AS REPRESENTATIVE
FOR THE PUERTO RICO ELECTRIC POWER
AUTHORITY (PREPA); THE FINANCIAL
OVERSIGHT AND MANAGEMENT BOARD FOR
PUERTO RICO, AS REPRESENTATIVE FOR
THE PUERTO RICO SALES TAX FINANCING
CORPORATION, a/k/a Coﬁna; THE FINANCIAL
OVERSIGHT AND MANAGEMENT BOARD FOR
PUERTO RICO, AS REPRESENTATIVE FOR
THE EMPLOYEES RETIREMENT SYSTEM
OF THE GOVERNMENT OF THE
COMMONWEALTH OF PUERTO RICO,
Debtors.
-----------------------------------------------------------------------

HERMANDAD DE EMPLEADOS DEL FONDO
DEL SEGURO DEL ESTADO, INC.; UNIÓN DE
MÉDICOS DE LA CORPORACIÓN DEL FONDO
DEL SEGURO DEL ESTADO CORP. (UMCFSE),
Plaintiffs, Appellants,

App. 2
v.
FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD; COMMONWEALTH OF PUERTO RICO;
STATE INSURANCE FUND CORPORATION;
JAVIER RIVERA RÍOS, in his ofﬁcial capacity as
Administrator of the State Insurance Fund
Corporation; CHRISTIAN SOBRINO VEGA;
JOSÉ IVÁN MARRERO ROSADO; TERESITA
FUENTES; WANDA VÁZQUEZ GARCED, in her
ofﬁcial capacity as Governor; OMAR J. MARRERO
DÍAZ, in his ofﬁcial capacity as Executive Director
of AAFAF; FRANCISCO PARÉS ALICEA, in his
ofﬁcial capacity as Secretary of Treasury,
Defendants, Appellees,
NATALIE A. JARESKO,
Defendant.
-----------------------------------------------------------------------

APPEAL FROM THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF PUERTO RICO
[Hon. Laura Taylor Swain,* U.S. District Judge]
-----------------------------------------------------------------------

Before
Thompson, Kayatta, and Barron,
Circuit Judges.
-----------------------------------------------------------------------

* Of the Southern District of New York, sitting by designation.

App. 3
Jessica E. Méndez-Colberg, with whom Rolando
Emmanuelli Jiménez and Bufete Emmanuelli were on
brief, for appellants.
Mark D. Harris, with whom Timothy W. Mungovan, John E. Roberts, Martin J. Bienenstock, Stephen
L. Ratner, John E. Richman, and Proskauer Rose LLP
were on brief, for appellees.
-----------------------------------------------------------------------

October 28, 2020
-----------------------------------------------------------------------

BARRON, Circuit Judge. In response to a
mounting ﬁscal crisis, Puerto Rico enacted a series of
laws that affect the relationship between public employees in the Commonwealth and their employers.
Two unions representing such employees ﬁled suit in
federal district court in Puerto Rico in July 2018, alleging that these laws impermissibly interfere with their
collective bargaining rights. We afﬁrm the District
Court’s dismissal of the complaint for failure to state a
claim on which relief may be granted.
I.
The Puerto Rico unions that bring this suit are
Hermandad de Empleados del Fondo del Seguro del
Estado, Inc. and Union de Medicos de la Corporacion
del Fondo del Seguro del Estado Corp. (collectively, the
“unions”). Each represents workers at Puerto Rico’s
State Insurance Fund Corporation (“CFSE,” after the
organization’s Spanish-language name), a Puerto Rico

App. 4
public corporation that provides medical and related
services to workers in the Commonwealth who have
suffered work-related injuries.
As the exclusive bargaining representatives for
approximately two thousand employees, these unions
negotiate with the CFSE over the terms of their members’ employment. Both unions have collective bargaining agreements with the CFSE that are in effect.1
To address Puerto Rico’s ﬁscal crisis, the Puerto
Rico Legislative Assembly passed the four laws (collectively, the “challenged laws”) affecting the rights and
beneﬁts of public sector workers within the Commonwealth that are at issue here. Set forth in the order of
their enactment from earliest to latest, these measures
are:
(1) Act 66-2014, the “Government of the Commonwealth of Puerto Rico Special Fiscal and Operational Sustainability Act,” which was passed on June
17, 2014;
(2) Act 3-2017, the “Law to Address the Economic, Fiscal, and Budgetary Crisis to Guarantee the
Operation of the Government of Puerto Rico,” enacted
on January 23, 2017;
1

Both of the contracts were apparently intended to only
cover periods that expired prior to the initiation of this lawsuit.
Yet, each has a provision automatically extending the contract so
long as the parties fail to come to terms on a new agreement. The
unions contend that because no superseding contracts have been
agreed to, the old ones remain in effect. The defendants do not
contest this contention in their motion to dismiss.

App. 5
(3) Act 8-2017, the “Law for the Management
and Transformation of Human Resources in the Government of Puerto Rico,” passed on February 4, 2017;
and, ﬁnally,
(4) Act 26-2017, the “Compliance with the Fiscal
Plan Act,” which became law on April 29, 2017.
The unions ﬁled suit in the United States District
Court for the District of Puerto Rico on July 25, 2018.
The unions’ complaint, after an amendment, asserted
claims against the Commonwealth of Puerto Rico, the
Financial Oversight and Management Board for
Puerto Rico (“FOMB”), the CFSE, and various Puerto
Rico government ofﬁcials based on the way these
measures allegedly violated the Contract Clause of
the United States Constitution, see U.S. Const. art. I.,
§ 10, cl. 1, and the Collective Bargaining Clause of the
Puerto Rico Constitution, see P.R. Const. art. II,
§ 17.The unions requested both “full compensatory and
punitive damages” and declaratory relief. They also requested “cost[s] and attorney fees.”
More speciﬁcally, the unions alleged in their complaint that, through these four laws, Puerto Rico took
away in whole or in part beneﬁts that the unions bargained for on behalf of their members and that their
members would otherwise be entitled to under the
collective bargaining agreements. For instance, the
unions alleged that the collective bargaining agreements guarantee their members a certain number of
vacation days and give departing workers the option to
convert unused days into cash, but that Acts 66-2014

App. 6
and 3-2017 eliminate the ability of workers to convert
unused days into cash, and that Act 26-2017 generally
restricts the maximum number of allowable vacation
days to ﬁfteen – beneath what the unions’ contracts
would otherwise guarantee. In addition, the unions
alleged that the collective bargaining agreements provide for fringe beneﬁts, including reimbursement for
certain travel and clothing expenses, but that Act 662014 and Act 3-2017 reduce or eliminate some of these
beneﬁts.
Separately, the unions alleged that the collective
bargaining agreements establish processes that the
CFSE must follow before hiring new employees. But,
the unions alleged, Act 8-2017 contains so-called “mobility” provisions that allow for the transfer of employees from other government entities to the CFSE, even
when such transfers would bypass the hiring processes
provided for in the agreements.
The complaint contended that the District Court
possessed federal question jurisdiction to consider the
unions’ claims under 28 U.S.C. § 1331 because, according to the complaint, “th[e] action arises under
PROMESA and the U.S. Constitution.” It also claimed
that the District Court had subject-matter jurisdiction
under 48 U.S.C. § 2126(a), which gives the District
Court for the District of Puerto Rico jurisdiction over
“action[s] against the Oversight Board, and any action
otherwise arising out of [PROMESA].” Finally, it alleged that jurisdiction existed under 48 U.S.C.
§ 2166(a) (2), which gives the District Court of Puerto
Rico “original but not exclusive jurisdiction of all civil

App. 7
proceedings arising under [Title III of PROMESA], or
arising in or related to cases under [Title III].” In a ﬁling below, the FOMB and one of the individual defendants – Natalie Jaresko, the executive director of the
FOMB – agreed that the District Court had subjectmatter jurisdiction under 48 U.S.C. § 2166(a).2
On the defendants’ motions, the District Court determined that some aspects of the unions’ claims for
declaratory relief had been rendered moot and dismissed those claims for lack of jurisdiction. See Fed. R.
Civ. P. 12(b)(1). It dismissed the remainder of the plaintiffs’ claims on the merits because it concluded that
they failed to state a claim on which relief could be
granted. See id. 12(b)(6). The unions then timely appealed.
II.
We ﬁrst address the question of Article III jurisdiction. The question arises primarily because, according to the District Court, the fourth and most recent of
the challenged laws, Act No. 26-2017, superseded the
three earlier enacted laws that the plaintiffs challenge:
Act No. 66-2014, Act No. 3-2017, and Act No. 8-2017.
The District Court concluded that, in consequence, the
fourth measure mooted the plaintiffs’ requests for declaratory relief concerning the three earlier challenged
laws. Moreover, the defendants contend that the
2

None of the defendants have argued that any of the unions’
claims are subject to the automatic stay provisions of PROMESA.
See 48 U.S.C. § 2161(a) (incorporating 11 U.S.C. § 362).

App. 8
enactment of even more recent legislation, as well as
the expiration of some of the provisions of the ﬁrst
three challenged measures, moot still other aspects of
the unions’ claims for declaratory relief. The unions
disagree on both counts, and so do we.
All four challenged measures were enacted before
the plaintiffs ﬁled suit, and none of the provisions in
them are asserted to have expired prior to that time.
This suggests that insofar as there is an Article III issue for us to resolve, it has to do with the plaintiffs’
potential lack of Article III standing to bring their
claims for declaratory relief, rather than with the fact
that any post-suit developments rendered those claims
moot. See Friends of the Earth, Inc. v. Laidlaw Env’t.
Servs. (TOC), Inc., 528 U.S. 167, 189-90 (2000).
Moreover, the unions raise claims for damages
based on the same alleged violations of the federal and
Puerto Rico constitutions that ground their declaratory judgment claims. And, as we will explain, for that
reason, Article III does not bar us from addressing
whether the plaintiffs are entitled to declaratory relief.
To see why, it helps to understand that the plaintiffs in their damages claim seek recompense only for
the harm caused during the period in which the challenged laws were in effect. There is no doubt that the
plaintiffs have standing to bring such claims, and the
defendants do not contend otherwise. There also is no
basis for concluding that the fourth challenged law’s
passage – or any other development – mooted those
damages claims. That being so, though, there also is no

App. 9
Article III bar to requesting a declaration that the
challenged laws are “null,” “void,” and “violat[ive]” of
the federal and Puerto Rico constitutions, because it is
well established that claims for declaratory relief can
survive “as a predicate to a damages award” based on
the same alleged underlying legal violation. Wolff v.
McDonnell, 418 U.S. 539, 555 (1974); compare Adarand
Constructors, Inc. v. Pena, 515 U.S. 200, 210 (1995)
(noting that while the plaintiff contractor’s “allegation
that it has lost a contract in the past” due to a certain
type of contracting clause “of course entitles it to seek
damages for the loss of that contract,” that past harm
alone cannot establish standing for “declaratory . . . relief against any future use” of that type of clause (emphasis in original)), with PETA v. Rasmussen, 298 F.3d
1198, 1202 n.2 (10th Cir. 2002) (“consider[ing] declaratory relief ” to be “retrospective to the extent that it is
intertwined with a claim for monetary damages that
requires us to declare whether a past constitutional violation occurred”).
Finally, nothing in the complaint expressly asks us
to pass on the validity of these laws in the hypothetical
world in which they are reinstated at some point in the
future. Thus, neither mootness nor standing concerns
pose a bar to our consideration of the unions’ claims for
declaratory relief from these challenged measures, insofar as they are injured by them. See Wolff, 418 U.S.
at 555 (noting that a declaratory judgment may be
proper “as a predicate to a damages award”); Dyer v.
Wells Fargo Bank, N.A., 956 F.3d 62, 65 & n.2 (1st Cir.
2020) (allowing a claim seeking a declaration

App. 10
regarding the legality of a foreclosure sale to proceed
in spite of the sale’s completion because the plaintiff
also sought damages based on the same legal theory as
the claim for declaratory relief ); Lippoldt v. Cole, 468
F.3d 1204, 1217 (10th Cir. 2006) (determining that
neither standing nor mootness precluded declaratory
relief where “the district court had to determine
whether a past constitutional violation occurred” to resolve the plaintiffs’ damages claim); Crue v. Aiken, 370
F.3d 668, 677 (7th Cir. 2004) (“When a claim for injunctive relief is barred but a claim for damages remains,
a declaratory judgment as a predicate to a damages
award can survive.”).
III.
As to the merits, we begin with the plaintiffs’
claims under the Contract Clause of the United States
Constitution, which provides that “No state shall . . .
pass any . . . Law impairing the Obligation of Contracts. . . .” U.S. Const. art. I., § 10, cl. 1. The defendants
do not contest that this prohibition applies to Puerto
Rico. See Redondo Constr. Corp. v. Izquierdo, 662 F.3d
42, 48 n.3 (1st Cir. 2011). We thus must evaluate these
claims with respect to each of the challenged laws by
asking, ﬁrst, “whether the . . . law has . . . operated as
a substantial impairment of a contractual relationship,” UAW v. Fortuño, 633 F.3d 37, 41 (1st Cir. 2011)
(quoting Energy Reserves Grp., Inc. v. Kan. Power &
Light Co., 459 U.S. 400, 411 (1983)), and, second,
whether any such impairment was “reasonable and
necessary to serve an important government purpose,”

App. 11
id. (quoting U.S. Trust Co. v. New Jersey, 431 U.S. 1, 25
(1977)).
The burden is on the plaintiffs to prove that
Puerto Rico’s action with respect to each challenged
law’s impact on the collective bargaining agreements
was not reasonable or necessary to serve an important
interest. See id. at 41-42. Because the plaintiffs allege
that Puerto Rico impaired a “public contract” for its
own “beneﬁt,” however, its otherwise “broad discretion
to determine whether an impairment of a private contract is reasonable or necessary” is more constrained
than it ordinarily would be. Parella v. Ret. Bd. of R.I.
Emps.’ Ret. Sys., 173 F.3d 46, 59 (1st Cir. 1999).
Our review of the District Court’s grant of a motion to dismiss under Rule 12(b) (6) is de novo. See
Starr Surplus Lines Ins. Co. v. Mountaire Farms Inc.,
920 F.3d 111, 114 (1st Cir. 2019). In conducting that
review, we may “afﬁrm the dismissal only if, taking all
the complaint’s well-pled allegations as true and viewing the other facts in the light most favorable to the
plaintiff, the complaint does not allege ‘enough facts to
state a claim to relief that is plausible on its face.’ ” Portugues-Santana v. Rekomdiv Int’l Inc., 725 F.3d 17, 25
(1st Cir. 2013) (quoting Bell Atl. Corp. v. Twombly, 550
U.S. 544, 570 (2007)).
Notably, “[w]e may augment these facts and inferences with data points gleaned from documents incorporated by reference into the complaint, matters of
public record, and facts susceptible to judicial notice.”
Starr Surplus Lines, 920 F.3d at 114 (quoting Haley v.

App. 12
City of Boston, 657 F.3d 39, 46 (1st Cir. 2011)). That
means that we may consider the content of the four
challenged laws themselves, as well as translated portions of the unions’ collective bargaining agreements.
Against this background, the plaintiffs must have
pleaded “sufﬁcient facts to allow a court to draw a reasonable inference that” each of the challenged laws is
“unreasonable or unnecessary to effectuate an important governmental purpose.” Fortuño, 633 F.3d at
45 (citing Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)).
To do so, a plaintiff “can, in the complaint, list the
state’s articulated motive(s), and then plead facts that
undermine the credibility of . . . those stated motives
or plead facts that question the reasonableness or necessity of the action in advancing the stated goals.” Id.
For example, we have explained, “if a state purports to
impair a contract to address a budgetary crisis, a plaintiff could allege facts showing that the impairment did
not save the state much money, the budget issues were
not as severe as alleged by the state, or that other costcutting or revenue-increasing measures were reasonable alternatives to the contractual impairment at issue.” Id.
At oral argument, the unions explained that they
allege that most of the challenged laws impaired the
collective bargaining agreements by reducing or eliminating ﬁnancial beneﬁts – like vacation or sick leave –
that would otherwise be owed to the workers under
those agreements. We thus begin with this set of alleged impairments.

App. 13
We may assume, as the District Court did, that
each of these alleged impairments constitutes a substantial impairment of the unions’ contracts with the
CFSE. For, even if we make that assumption, we still
conclude that the plaintiffs have not met their burden
to plausibly allege that they were not reasonable ones.
The unions do not dispute that resolving the ﬁscal
challenges of Puerto Rico’s central government constitutes an “important government purpose.” See Aurelius Inv., LLC v. Puerto Rico, 915 F.3d 838, 843-44 (1st
Cir. 2019) (summarizing Puerto Rico’s ﬁnancial difﬁculties), rev’d and remanded sub nom. Fin. Oversight
& Mgmt. Bd. for P.R. v. Aurelius Inv., LLC, 140 S. Ct.
1649 (2020); Fortuño, 633 F.3d at 46-47 (rejecting the
plaintiffs’ “conclusory statement” that addressing
Puerto Rico’s then-$3.2 billion deﬁcit was “neither [a]
signiﬁcant nor [a] legitimate” purpose); Buffalo Teachers Fed’n v. Tobe, 464 F.3d 362, 369 (2d Cir. 2006)
(“[C]ourts have often held that the legislative interest
in addressing a ﬁscal emergency is a legitimate public
interest.”). They also do not dispute that, at least as a
general matter, limiting the amount of beneﬁts paid
out to workers would produce cost savings that could
be useful in resolving a ﬁscal crisis.3
3

The unions do appear to suggest that certain cuts to fringe
beneﬁts at the CFSE were not designed to reduce spending but
instead were intended to produce “[e]quity in [f ]ringe [b]eneﬁts”
between employees at public corporations like the CFSE and
other public employees. But, while the challenged laws do reﬂect
a concern about equity in this regard, context makes clear that in
seeking to “standardiz[e]” the beneﬁts of public corporation employees and other public employee, Puerto Rico was primarily

App. 14
The unions nonetheless contend that none of the
ﬁnancial savings from the beneﬁt cuts to CFSE employees imposed by the challenged laws accrued to the
beneﬁt of the Commonwealth, because the CFSE is an
independent governmental entity that “is ﬁscally selfsufﬁcient and . . . does not depend on appropriations
from the Commonwealth’s General Fund for its operations.” Indeed, the unions allege that the CFSE itself is
“solvent.” Thus, they suggest, the government “could
have tailored the challenged legislation” to exempt
CFSE workers from the beneﬁt cuts while still generating savings by imposing cuts on the public workers
who do affect the Commonwealth’s bottom line. Its failure to do so, according to the unions, renders these alleged substantial impairments unreasonable or
unnecessary to secure an important government objective.
There is no basis, however, for the unions’ contention that the beneﬁt cuts implemented by the challenged laws are unrelated to Puerto Rico’s interest in
addressing the ﬁscal challenges faced by its central
government. In recent years, Puerto Rico has passed a
series of measures that enable its central government
to beneﬁt from the ﬁscal savings generated at public
corporations. Most significantly, Act No. 26-2017, as
described in its own preamble, “orders the public corporations and instrumentalities of the Government of
Puerto Rico,” including the CFSE, “to transfer to the
Department of the Treasury the necessary funds to
concerned with “reduc[ing] expenses” at public corporations and
saving money.

App. 15
guarantee the government’s liquidity” and establishes
a process for determining the precise amount to be
transferred.
The unions separately ask us to conclude that they
have plausibly alleged that the imposition of the beneﬁt cuts was unreasonable or unnecessary to address
Puerto Rico’s ﬁscal problems because “other cost-cutting or revenue-increasing measures were reasonable
alternatives” to the challenged laws. Fortuño, 633 F.3d
at 45. But, the unions alleged only the following bare
bones “possible options” as having been available to the
Puerto Rico government:
a. Increase in compliance and revenue collection across the major tax lines (personal
income tax, corporate income tax, and [Sales
and Use Tax])
b. Reduction or elimination of useless tax
credits or incentives.
c. Rightsizing measures within the instrumentalities of the Commonwealth that do not
operate as private businesses or enterprises.
d. Planning, development and investment
in economic growth projects to increase revenues and collections.
Those listed options – which do not, for instance, identify any speciﬁc “useless tax credits or incentives” or
explain why the savings generated by eliminating such
tax breaks would rival the savings generated by beneﬁt cuts – are not adequate to support the plaintiffs’
claims that the cutting of CFSE beneﬁts caused by the

App. 16
challenged laws were unreasonable or unnecessary.4
See SEC v. Tambone, 597 F.3d 436, 442 (1st Cir. 2010)
(en banc) (“If the factual allegations in the complaint
are too meager, vague, or conclusory to remove the possibility of relief from the realm of mere conjecture, the
complaint is open to dismissal.”); Fortuño, 633 F.3d at
47 (afﬁrming a motion to dismiss a Contract Clause
claim where the plaintiffs did not “explain how” increased use of federal aid could “alleviate a $3.2 billion
deﬁcit to such an extent as to render [the challenged]
contractual impairments unnecessary”).
There remains, then, only the unions’ Contract
Clause challenge to the “mobility” provisions of the
challenged laws.5 These provisions authorize the

4

The unions brieﬂy suggest that the transfer of funds from
the CFSE to other governmental entities is itself an alternative
to the challenged laws. But, even setting aside the underdeveloped nature of this argument and the resulting waiver problem,
see United States v. Zannino, 895 F.2d 1, 17 (1st Cir. 1990), here,
too, the unions failed to plead facts showing that this alternative
was an adequate one, see Fortuño, 633 F.3d at 45. Indeed, as explained above, Puerto Rico is already using savings generated by
the CFSE to address budgetary shortfalls elsewhere in the government.
5
To the extent that any of the numerous provisions challenged by the unions cannot fairly be classiﬁed as belonging to
one of the two categories of actions that we address and cannot be
justiﬁed by the same reasoning as the Commonwealth offered for
the other actions, the unions fail to identify those provisions or
explain why the justifications offered for their enactment were
legally inadequate. See Fortuño, 633 F.3d at 45 (requiring a plaintiff raising a Contract Clause claim to “list the state’s articulated
motive(s)” for the action and “plead facts” that cast doubt on
the adequacy of those explanations); Zannino, 895 F.2d at 17

App. 17
Government of Puerto Rico to move employees between different units of the Puerto Rico government,
including to and from public corporations like CFSE.
The unions contend that these provisions impair their
collective bargaining agreements by, among other
things, undermining provisions in those agreements
that govern the process for hiring and promoting workers.
Here, too, we may assume that the challenged
measures substantially impair the unions’ collective
bargaining agreements.6 For, even if we make that assumption, the unions have not plausibly alleged that
this substantial impairment was unreasonable or unnecessary to secure an important government objective.
In enacting the mobility provisions, the Puerto
Rico Legislative Assembly was mindful, given the
Commonwealth’s ﬁscal state, of what it believed to be
a need to “consolidate[ ]” services, “delegate[ ]” them “to
(“[I]ssues adverted to in a perfunctory manner, unaccompanied
by some effort at developed argumentation, are deemed waived.”).
6
We do not, however, understand the challenged laws to
have wholly eliminated the collective bargaining rights of the unions or the workers they represent. The parties, it is true, do not
clearly explain how the “mobility” provisions allowing for employee transfers in and out of the CFSE affect the rights of the
transferred employees, their membership in the bargaining unit,
or their employer for bargaining purposes. But, neither party contends that the unions or their right to collectively bargain have
been eliminated by the challenged laws, and, indeed, the challenged laws themselves appear to contemplate a continued role
for public sector unions in collectively bargaining on behalf of
their employees.

App. 18
the private sector,” and, in some cases, “eliminate[ ]”
ones that it believed to be wholly unnecessary. The mobility provisions were intended to facilitate these service cuts while continuing to “guarantee[ ]” “the offer of
services to our citizens” “without involving the dismissal of public employees.” The alternative to enacting
the challenged mobility provisions and other similar
ﬂexibility measures, according to the legislature, was
heavy-handed layoffs of “thousands of employees.”
The unions do not dispute that Puerto Rico’s goal
of resolving its budgetary crisis while minimizing service disruption and layoffs was a legitimate one, see
Buffalo Teachers Fed’n, 464 F.3d at 369, nor do they
argue that the legislature’s acknowledged alternative
of simply terminating large numbers of public employees would have been an adequate substitute for the
Commonwealth’s chosen course of action. They likewise do not voice any disagreement with the Commonwealth’s apparent conclusion that it was necessary to
apply the mobility provisions to workers at the CFSE
to achieve this goal. Instead, the only alleged inadequacies that they identify with these provisions are the
same inadequacies that they identify with the Commonwealth’s general approach to addressing its ﬁscal
problems. For the reasons we have already stated,
though, those cursory allegations do not sufﬁce to meet
the plaintiffs’ pleading burden in alleging violations of
the Contracts Clause.

App. 19
IV.
We come, then, to the unions’ claims under the
Collective Bargaining Clause of the Puerto Rico Constitution. That provision guarantees employees of “instrumentalities of the government operating as
private businesses or enterprises . . . the right to organize and to bargain collectively with their employers
through representatives of their own free choosing in
order to promote their welfare.” P.R. Const. art. II, § 17.
The District Court dismissed these claims as
barred by the applicable statute of limitations. It relied
on P.R. Laws Ann. tit. 31, § 5298, which establishes a
one-year statute of limitations for “[a]ctions to recover
or retain possession” and “[a]ctions to demand civil liability for grave insults or calumny, and for [certain]
obligations arising from . . . fault or negligence. . . .”
See also Quality Cleaning Prod. R.C., Inc. v. SCA Tissue N. Am., LLC, 794 F.3d 200, 204 (1st Cir. 2015) (noting that state statute of limitations law applies to state
law claims). Our review is de novo. See Santana-Castro
v. Toledo-Dávila, 579 F.3d 109, 113 (1st Cir. 2009).
We may quickly dispose of as waived the plaintiffs’
contention that § 5298 does not set forth the applicable
statute of limitations for these claims, due to its latebreaking and underdeveloped nature. See Rife v.
One W. Bank, F.S.B., 873 F.3d 17, 19 (1st Cir. 2017);
Zannino, 895 F.2d at 17. The plaintiffs ﬁrst challenge
the statute’s application in their reply brief, even
though the District Court had applied § 5298 below
and even explained its holding. We thus take up the

App. 20
plaintiffs’ contention that, under Puerto Rico law,
§ 5298 did not begin to run so long as the “challenged
[laws] [were] still valid and enforced,” and hence that
there is no statute of limitations bar to their claims. To
support that contention, they assert that they are challenging “tortious . . . act[s]” that are “of a continuing
nature” and thus that, under Puerto Rico law, the limitations period could only have begun to run “when the
last acts . . . [were] veriﬁed or the deﬁnitive result
[was] produced,” whichever occurred later. Rivera-Ruiz
v. Municipality of Ponce, 196 D.P.R. 410 (2016) [Transl.
at 14].
Under Puerto Rico law, “continuing acts or omissions” toll § 5298’s limitations period. Id. at 15. But, we
are dealing here with harm resulting from the enactment of a statute, and the plaintiffs point to no authority to support their assertion that the alleged
interference with their bargaining rights constitutes
such “continuous acts or omissions” when it results
from the passage of legislation alone. Certainly RiveraRuiz, on which they rely, did not deal with harms
caused by a statutory enactment. Moreover, we have
previously held that “the continuing violation” doctrine
does not apply “to facial takings claims” under the Takings Clause of the federal Constitution, see Asociación
de Suscripción Conjunta del Seguro de Responsabilidad Obligatorio v. Juarbe-Jiménez, 659 F.3d 42, 51
(1st Cir. 2011), because such a claim necessarily targets “the mere enactment of a statute,” id. at 48 (quoting Keystone Bituminous Coal Ass’n v. DeBenedictis,
480 U.S. 470, 494 (1987)), and so “accrues at the time

App. 21
the offending statute . . . is enacted or becomes effective” even though “the precise dollar amount that
would be” lost over time is unknown, id. at 50-52.
To be sure, unlike in Asociación de Suscripción
Conjunta, Puerto Rico rather than federal law governs
the accrual date here. See Quality Cleaning, 794 F.3d
at 204. But, we do not see why we should presume that
the Puerto Rico Supreme Court would disagree with
our reasoning in Asociación de Suscripción Conjunta,
which rejected the notion that a challenge to the “mere
enactment” of a statute takes aim at a “continuing violation,” 659 F.3d at 51-52, especially given that the
unions identify no contrary authority from any court,
whether in the Commonwealth or not.
V.
Accordingly, we affirm the dismissal of the unions’ claims.

App. 22
APPENDIX B
United States Court of Appeals
For the First Circuit
-----------------------------------------------------------------------

No. 19-2028
IN RE: THE FINANCIAL OVERSIGHT AND
MANAGEMENT BOARD FOR PUERTO RICO, AS
REPRESENTATIVE FOR THE COMMONWEALTH
OF PUERTO RICO; THE FINANCIAL OVERSIGHT
AND MANAGEMENT BOARD FOR PUERTO RICO,
AS REPRESENTATIVE FOR THE PUERTO RICO
HIGHWAYS AND TRANSPORTATION AUTHORITY;
THE FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD FOR PUERTO RICO, AS REPRESENTATIVE
FOR THE PUERTO RICO ELECTRIC POWER
AUTHORITY (PREPA); THE FINANCIAL
OVERSIGHT AND MANAGEMENT BOARD FOR
PUERTO RICO, AS REPRESENTATIVE FOR
THE PUERTO RICO SALES TAX FINANCING
CORPORATION, a/k/a Coﬁna; THE FINANCIAL
OVERSIGHT AND MANAGEMENT BOARD FOR
PUERTO RICO, AS REPRESENTATIVE FOR
THE EMPLOYEES RETIREMENT SYSTEM
OF THE GOVERNMENT OF THE
COMMONWEALTH OF PUERTO RICO,
Debtors.
-----------------------------------------------------------------------

HERMANDAD DE EMPLEADOS DEL FONDO
DEL SEGURO DEL ESTADO, INC.; UNION DE
MEDICOS DE LA CORPORACION DEL FONDO
DEL SEGURO DEL ESTADO CORP. (UMCFSE),
Plaintiffs, Appellants,

App. 23
v.
FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD; COMMONWEALTH OF PUERTO RICO;
STATE INSURANCE FUND CORPORATION;
JAVIER RIVERA RÍOS, in his ofﬁcial capacity as
Administrator of the State Insurance Fund
Corporation; CHRISTIAN SOBRINO VEGA;
JOSÉ IVÁN MARRERO ROSADO; TERESITA
FUENTES; WANDA VÁZQUEZ GARCED, in her
ofﬁcial capacity as Governor; OMAR J. MARRERO
DÍAZ, in his ofﬁcial capacity as Executive Director
of AAFAF; FRANCISCO PARÉS ALICEA, in his
ofﬁcial capacity as Secretary of Treasury,
Defendants, Appellees,
NATALIE A. JARESKO,
Defendant.
-----------------------------------------------------------------------

JUDGMENT
Entered: October 28, 2020
This cause came on to be heard on appeal from the
United States District Court for the District of Puerto
Rico and was argued by counsel.
Upon consideration whereof, it is now here ordered, adjudged and decreed as follows: The district
dourt’s dismissal of the complaint for failure to state a
claim on which relief may be granted is afﬁrmed.
By the Court:
Maria R. Hamilton, Clerk

App. 24
cc: Rolando Emmanuelli-Jimenez, Jessica Esther
Méndez-Colberg, Hermann D. Bauer-Alvarez, Timothy
W. Mungovan, Ubaldo M. Fernandez, Stephen L.
Ratner, John E. Roberts, Mark David Harris, Martin
J. Bienenstock, Daniel Jose Perez-Refojos, Jonathan E.
Richman, Guy Brenner, Peter W. Miller, Stuart A.
Weinstein-Bacal, Javier A. Vega-Villalba, Luis C.
Marini-Biaggi, Peter M. Friedman, John J. Rapisardi,
William J Sushon, Wandymar Burgos-Vargas, Carolina
Velaz-Rivero

App. 25
APPENDIX C
UNITED STATES DISTRICT COURT
DISTRICT OF PUERTO RICO
----------------------------------------------------- x
In re:
PROMESA
THE FINANCIAL OVERSIGHT
Title III
AND MANAGEMENT BOARD
FOR PUERTO RICO,
Case No.
17-3283 (LTS)
as representative of
(Jointly
THE COMMONWEALTH
Administered)
OF PUERTO RICO, et al.,
Debtors.1
----------------------------------------------------- x
HERMANDAD DE EMPLEADOS
DEL FONDO DEL SEGURO DEL
ESTADO, INC.; UNIÓN DE MÉDICOS Adv. Proc. No.
DE LA CORPORACIÓN DEL FONDO 18-091-LTS
DEL SEGURO DEL ESTADO CORP.,
Plaintiffs,
1

The Debtors in these Title III Cases, along with each Debtor’s
respective Title III case number and the last four (4) digits of each
Debtor’s federal tax identiﬁcation number, as applicable, are the
(i) Commonwealth of Puerto Rico (Bankruptcy Case No. 17 BK 3283LTS)
(Last Four Digits of Federal Tax ID: 3481); (ii) Puerto Rico Sales Tax
Financing Corporation (“COFINA”) (Bankruptcy Case No. 17 BK 3284LTS) (Last Four Digits of Federal Tax ID: 8474); (iii) Puerto Rico Highways and Transportation Authority (“HTA”) (Bankruptcy Case No. 17
BK 3567-LTS) (Last Four Digits of Federal Tax ID: 3808); (iv) Employees Retirement System of the Government of the Commonwealth of
Puerto Rico (“ERS”) (Bankruptcy Case No. 17 BK 3566-LTS) (Last Four
Digits of Federal Tax ID: 9686); and (v) Puerto Rico Electric Power Authority (“PREPA”) (Bankruptcy Case No. 17 BK 4780-LTS) (Last Four
Digits of Federal Tax ID: 3747) (Title III case numbers are listed as
Bankruptcy Case numbers due to software limitations).

App. 26
v.
COMMONWEALTH OF PUERTO RICO;
THE FINANCIAL OVERSIGHT AND
MANAGEMENT BOARD FOR PUERTO
RICO; STATE INSURANCE FUND
CORPORATION; JAVIER RIVERA
RÍOS; HON. WANDA VÁZQUEZ
GARCED; OMAR J. MARRERO;
HON. FRANCISCO PARÉS ALICEA;
JOSÉ IVÁN MARRERO ROSADO,
Defendants.2
----------------------------------------------------- x

2

The following former Commonwealth government officials, who
were named as defendants in this adversary proceeding in their official
capacities only, have resigned or otherwise left office since the First
Amended Adversary Complaint (Docket Entry No. 14 in Adv. Proc. No.
18-091, the “Amended Complaint”) was filed: (i) former Administrator
of the State Insurance Fund Corporation Jesus M. Rodriguez Rosa;
(ii) former Governor Ricardo Antonio Rossello Nevares; (iii) former Executive Director of the Fiscal Agency and Financial Advisory Authority
(“AAFAF”) Gerardo Portela Franco; (iv) former Secretary of Treasury
Raul Maldonado Gautier; and (v) former Director of the Office of Management and Budget Jose Ivan Marrero Rosado. (See Am. Compl.
¶¶ 43-47.) Pursuant to Federal Rule of Civil Procedure 25(d), made applicable to this adversary proceeding by Federal Rule of Bankruptcy
Procedure 7025, the current officeholders, as follows, are substituted for
the originally-named defendants: (i) Javier Rivera Rios in his official capacity as Administrator of the State Insurance Fund Corporation;
(ii) Hon. Wanda Vazquez Garced in her official capacity as Governor;
(iii) Omar J. Marrero in his official capacity as Executive Director of
AAFAF; and (iv) Hon. Francisco Pares Alicea in his official capacity as
Secretary of Treasury (collectively with the Director of the Office of
Management and Budget, the “Official Defendants”). The Clerk of
Court is directed to update the caption as set forth above.

App. 27
OPINION AND ORDER GRANTING THE MOTIONS
TO DISMISS PLAINTIFFS’ FIRST AMENDED
ADVERSARY COMPLAINT PURSUANT TO
FED. R. CIV. P. 12 (B)(1) AND (B)(6)
(Filed Sep. 27, 2019)
APPEARANCES:
BUFETE EMMANUELLI
C.S.P. By: Rolando
Emmanuelli Jimenez
Jessica E. Mendez Colberg
Yasmin Colon Colon
Wilbert Lopez Moreno
472 Tito Castro Ave.
Marvesa Bldg. Suite 106
Ponce, Puerto Rico 00716

O’NEILL & BORGES LLC
By: Hermann D. Bauer
Ubaldo M. Fernandez
250 Muﬁoz Rivera Ave.,
Suite 800
San Juan, Puerto Rico 00918

PROSKAUER ROSE LLP
By: Martin J. Bienenstock
Stephen L. Ratner
Attorneys for Plaintiffs
Timothy W. Mungovan
Jonathan E. Richman
Hermandad de Empleados
del Fondo del Seguro Del Eleven Times Square
Estado, Inc. and Unión de New York, NY 10036
Médicos de la Corporación
and
del Fondo del Seguro del
Guy Brenner
Estado Corp.
1001 Pennsylvania Ave., NW
Suit 600 South
Washington, DC 20004
Attorneys for Defendant
the Financial Oversight
and Management Board for
Puerto Rico in its own right
and as representative
of the Commonwealth
of Puerto Rico

App. 28
DENNISE N. LONGO
QUIÑONES
Secretary of Justice
of Puerto Rico
By: Wandymar Burgos
Vargas
Deputy Secretary
in Litigation
Department of Justice
P.O. Box 9020192
San Juan, Puerto Rico 00902
Attorneys for Defendants
Wanda Vazquez Garced,
Francisco Pares Alicea, and
Jose Ivan Marrero Rosado
O’MELVENY & MYERS LLP
By: John J. Rapisardi
William J Sushon
Peter Friedman
7 Times Square
New York, NY 10036
MARINI PIETRANTONI
MUÑIZ LLC
By: Luis C. Marini-Biaggi
Carolina Velaz-Rivero
MCS Plaza, Suite 500
255 Ponce de Leon Ave.
San Juan, Puerto Rico 00917
Attorneys for Defendant
Omar J. Marrero

App. 29
WEINSTEIN-BACAL,
MILLER & VEGA,
By: Stuart A.
Weinstein-Bacal
Peter W. Miller
Javier A. Vega-Villalba
P.S.C. Gonzalez-Padin
Building—Penthouse
154 Rafael Cordero Street,
Plaza de Armas
Old San Juan, Puerto Rico
00901
Attorneys for Defendants
State Insurance Fund
Corporation and Javier
Rivera Rios
LAURA TAYLOR SWAIN,
United States District Judge
Before the Court are (i) the Motion to Dismiss
Plaintiffs’ First Amended Adversary Complaint Pursuant to Fed. R. Civ. P. 12(b)(1) and (b)(6) (Docket Entry No. 22 in Adv. Proc. No. 18-091,3 the “Oversight
Board’s Motion to Dismiss”) filed by the Financial
Oversight and Management Board for Puerto Rico
(the “Oversight Board”) on its own behalf and on behalf of the Commonwealth of Puerto Rico (the “Commonwealth”), and (ii) Defendant Government Ofﬁcials’
Hon. Ricardo Rossello Nevares, Hon. Teresita Fuentes,
Jose Ivan Marrero Rosado, and Christian Sobrino’s
3

All docket entry references are to entries in Adv. Proc. No.
18-091, unless otherwise speciﬁed.

App. 30
Motion to Dismiss Plaintiffs’ First Amended Adversary
Complaint Under Fed. R. Civ. P. 12(b)(1) and 12(b)(6)
(Docket Entry No. 25, the “Government Officials’
Motion to Dismiss” and, together with the Oversight
Board’s Motion to Dismiss, the “Motions”). Also before
the Court is Defendants State Insurance Fund Corporation and Jesus Rodriguez Rosa’s Motion for Joinder
(Docket Entry No. 26, the “Joinder”), whereby State Insurance Fund Corporation (“SIFC” and, collectively
with the Oversight Board and the Commonwealth,
the “Government Entities”) (the Government Ofﬁcials
collectively with the Government Entities, the “Defendants”) joins in all arguments asserted in the
Oversight Board’s Motion to Dismiss, and the Administrator of SIFC joins in all arguments asserted in
the Government Ofﬁcials’ Motion to Dismiss. The
Court has considered carefully all of the submissions
made in connection with the Motions. Except as explained below, the Court has subject matter jurisdiction of this action pursuant to 48 U.S.C. § 2166. For the
following reasons, the Motions are granted. Plaintiffs’
First and Second Prayers for Relief are dismissed in
part pursuant to Federal Rule of Civil Procedure
12(b)(1) (“Rule 12(b)(1)”), and the remainder of Plaintiffs’ claims are dismissed pursuant to Federal Rule of
Civil Procedure 12(b)(6) (“Rule 12(b)(6)”).4

4

Rules 12(b)(1) and 12(b)(6) are applicable to this adversary
proceeding pursuant to Federal Rule of Bankruptcy Procedure
7012.

App. 31
I.
BACKGROUND
The following recitation of facts is drawn from the
Amended Complaint, except where otherwise indicated.
Plaintiffs, Hermandad de Empleados del Fondo
del Seguro del Estado, Inc. (“UECFSE”), and Unión de
Médicos de la Comoracion del Fondo del Seguro del Estado Corp. (“UMCFSE” and, together with UECFSE,
“Plaintiffs” or the “Unions”), are labor unions that represent employees of SIFC. (Am. Compl. ¶¶ 8, 11.) SIFC
is a public corporation that provides workers’ compensation insurance coverage and other related services
to workers in the Commonwealth. (Id. ¶¶ 1-3, 55.)
UECFSE represents those employees responsible for
SIFC’s general operation, and UMCFSE represents
only those employees who provide medical services to
injured workers served by SIFC. (Id. ¶¶ 8, 11.) The Unions are tasked with protecting and defending the
rights of their members and negotiating collective bargaining agreements on such members’ behalf. (Id. ¶¶ 9,
12.)
The Unions each negotiated and entered into separate collective bargaining agreements (the “CBAs”)
with SIFC covering periods that have since elapsed.
(Id. ¶¶ 9-10, 1213 & Exs. A and B.) Each CBA provides,
however, that it will remain enforceable until a new
collective bargaining agreement is in effect. (Am.
Compl. ¶¶ 10, 13.) Given that neither Union has executed a new collective bargaining agreement with

App. 32
SIFC, Plaintiffs assert that the CBAs continue to govern the terms of Union members’ employment with
SIFC. (Id.) The CBAs address, in relevant part, “vacation and illness pay, training, employee classiﬁcations,
job reclassiﬁcations, fringe beneﬁts, licenses due to job
accidents, employee suspensions, and dispute resolution.” (Id. ¶ 83.)
On June 17, 2014, the Legislative Assembly of
Puerto Rico (the “Legislative Assembly”) enacted the
“Government of the Commonwealth of Puerto Rico
Special Fiscal and Operational Sustainability Act,”
Act No. 66 of 2014. (Id. ¶ 15(a); see Docket Entry No.
23, the “Translation Motion,” Ex. 1, “Act No. 66-2014.”)
Act No. 66-2014 “devises a plan to deal with the consequences of the fiscal and economic crisis of the
downgrading of Puerto Rico’s credit rating,” which it
describes as a “serious economic and ﬁscal emergency.”
(Act No. 66-2014 at 1, 5.) In order to allow the Commonwealth to meet its liquidity needs and the payroll
of public employees, and to cover the costs of essential
services to the residents of Puerto Rico, Act No. 662014 implements a variety of measures to cut back on
spending without resorting to the dismissal of career
public employees or otherwise affecting critical functions of government agencies. (Id.) Section 17 of Act No.
66-2014, titled “Fiscal Control in Public Corporations,”
provides that public corporations such as SIFC “shall
recognize to both union and nonunion employees their
vacation leaves accrued as of the effective date of
this Act; however, the excess thereof accrued before
and during the effective term of this Act shall not be

App. 33
liquidated in cash.” (Id. § 17.) Public corporations must
also “establish a plan whereby both union and nonunion employees shall exhaust the [vacation] leaves accrued in excess so that no excess is carried over after
the effective term of this Act.” (Id.) Section 17 of Act
No. 66-2014 further provides that excess sick leave accrued by employees of public corporations before the
effective date of the Act shall be “frozen at the pay rate
in effect as of June 30th, 2014, and the liquidation
thereof in cash shall only be made in the event of separation from public service.” (Id.) Any excess sick leave
accrued after the effective date of Act No. 66-2014 must
be used on or before June 30 of the year following the
year in which it was accrued, and such balance will be
forfeited after that date. (Id.)
On January 23, 2017, the Legislative Assembly enacted the “Act to Attend to the Economic, Fiscal, and
Budget Crisis and to Guarantee the Functioning of the
Government of Puerto Rico,” Act No. 3 of 2017. (Am.
Compl. ¶ 15(b);5 see Transl. Mot., Ex. 2, “Act No.
32017.”) Act No. 3-2017 addresses the “serious ﬁscal,
economic, and budgetary crisis” faced by the Commonwealth by “ensur[ing] that the Government . . . continues operating and offering essential services to the
citizens.” (Act No. 3-2017 at 1 & Art. 3). Article 14 of
Act No. 3-2017, titled “Fiscal Control in the Public
5

The title of the certiﬁed translation of Act No. 3-2017 submitted by the Oversight Board and the Commonwealth at Exhibit
2 to the Translation Motion—the “Law to Address the Economic,
Fiscal, and Budgetary Crisis to Guarantee the Operation of the
Government of Puerto Rico”—differs slightly from the title identiﬁed in the Amended Complaint.

App. 34
Corporations,” imposes a variety of restrictions related
to public employment in the Commonwealth. (Id. Art.
14.) For example, it requires all public corporations to
“suspend the non-economic clauses in the agreements
in effect that have direct or indirect economic effects
on the operation of the public corporation that exacerbate the budgetary situation thereof or that need to be
suspended to alleviate the budgetary situation.” (Id.)
Article 14 also directs public corporations to recognize
accrued vacation days for employees, although it limits
the ability of employees “to liquidate in cash the excess
accrued before and during the term of Act No. 3-2017.
(Id.) Similarly, Article 14 provides that excess sick
leave accrued by employees prior to the effective date
of the Act will be frozen at the salary of the employee
in effect on June 30, 2014, and will be liquidated in
cash only if the employee leaves public service. (Id.)
On February 4, 2017, the Legislative Assembly enacted the “Administration and Transformation of the
Human Resources of the Government of Puerto Rico
Act,” Act No. 8 of 2017. (Am. Compl. ¶ 15(c);6 see
Transl. Mot., Ex. 3, “Act No. 8-2017.”) Act No. 8-2017
creates a “Government of Puerto Rico Human Resources Management and Transformation System”
that is “entirely in harmony with collective bargaining,
the main purpose of which will be to apply, reinforce,
6

The title of the certiﬁed translation of Act No. 8-2017 submitted by the Oversight Board and the Commonwealth at Exhibit
3 to the Translation Motion—the “Law for the Management
and Transformation of Human Resources in the Government of
Puerto Rico”—differs slightly from the title identified in the
Amended Complaint.

App. 35
evaluate, and protect the principle of merit in public
service.” (Act No. 82017 § 5.1.) Act No. 8-2017 also provides that the government of the Commonwealth shall
be converted into a “[s]ingle [e]mployer so that the employees will become employees of the Government and
not of their different entities.” (Id. at 2.) To that end,
Act No. 8-2017 allows for the consolidation or elimination of public services and the transfer of employees
between public agencies. (See id. § 6.4(2).) According to
the Legislative Assembly, Act No. 8-2017 “facilitates
the transfer of employees,” “interconnects all the agencies and public corporations,” “encourages mobility for
the continuity of . . . public services,” and “guarantees
the continuity of the jobs of each public servant in career ofﬁce.” (Id. at 2.)
On April 29, 2017, the Legislative Assembly enacted the “Fiscal Plan Compliance Act,” Act No. 26 of
2017. (Id. ¶ 15(d);7 see Transl. Mot., Ex. 4, “Act No. 262017” and, collectively with Act No. 66-2014, Act No. 32017, and Act No. 8-2017, the “Challenged Legislation.”) Act No. 26-2017 was enacted in response to the
Commonwealth’s “historically unprecedented monumental ﬁscal crisis,” and it implements a variety of
measures to ensure compliance with the Commonwealth ﬁscal plan certiﬁed by the Oversight Board in
March 2017. (Act No. 26-2017 at 2, 5.) It also seeks to
7

The title of the certified translation of Act No. 26-2017
submitted by the Oversight Board and the Commonwealth at
Exhibit 4 to the Translation Motion—the “Compliance with the
Fiscal Plan Act”—differs slightly from the title identiﬁed in the
Amended Complaint.

App. 36
guarantee that the Commonwealth has “sufﬁcient liquidity to be able to pay the payroll of public employees
and to pay for the essential services it offers its citizens.” (Id. at 7.)
With respect to labor reform, Act No. 26-2017 “establish[es] a uniform system of fringe beneﬁts.” (Id. at
1.) In furtherance of that objective, Article 1.02 of Act
No. 26-2017 vacates all laws and collective bargaining
agreement provisions applicable exclusively to fringe
beneﬁts that are contrary to Act No. 26-2017. (Id. Art.
1.02.) Nevertheless, Act No. 26-2017 provides that it
“does not eliminate the right of unions to negotiate
working conditions, wages, and other non-economic
conditions” not addressed therein. (Id.)
Article 2.10 of Act No. 26-2017 mandates that each
public corporation “recognize to all public employees,
union and nonunion, the balances of vacation and sick
leaves accrued” as of its effective date, but further provides that employees “will not be able to liquidate in
cash the accrued excesses” before that date. (Id. Art.
2.10.) Public corporations are also required to “establish a plan to exhaust the excess accrued of the balances accrued for employees . . . [so that] there will be
no accruals in excess of what is permitted in sick or
vacation leaves; provided, further, that after [the effective date of Act No. 26-2017,] the excess balance that
has not been used will be lost.” (Id.) Finally, the “Nullity” provision of Act No. 26-2017 provides in pertinent
part that:

App. 37
As from the effective date of this Law, any
clause or provision of a collective bargaining
agreement, agreement, supplementary agreement, regulation, administrative order, circular, and/or contractual letter will be null and
void in the provisions that grant to union or
nonunion public ofﬁcials or employees of the
Government, including all union or non-union
employees of the Public Corporations of the
Government of Puerto Rico, greater fringe
beneﬁts than those authorized in this Law.
(Id. Art. 2.19.)
On June 29, 2018, the Oversight Board certiﬁed a
Commonwealth Fiscal Plan (the “2018 Fiscal Plan”),
which was subsequently revised on October 23, 2018.
(Am. Compl. ¶¶ 16, 17.) According to Plaintiffs, the
Challenged Legislation was “incorporated by Defendants” into the 2018 Fiscal Plan and, similarly, the 2018
Fiscal Plan was “based on the assumption that the provisions of [the Challenged Legislation] and budget cuts
[would] continue to be enforced through the duration
of the [2018 Fiscal Plan].” (Id.)
Plaintiffs contend that the Commonwealth government has, “through the approval and adoption of
the [Challenged Legislation], and in an attempt to
comply with the [Oversight Board], retroactively destroyed and substantially impaired” the CBAs to the
extent that the CBAs have been rendered “almost
useless.” (Id. ¶ 19.) According to Plaintiffs, “the major
aspects of the CBA[s] being altered” by the Challenged Legislation are “vacation license, illness license,

App. 38
employee mobility or transfer within or out of the corporation, the rights and protection of the appropriate
unit, bonuses, and job classiﬁcations.” (Id. ¶ 110.) Defendants’ actions, Plaintiffs maintain, violate Plaintiffs’ rights under the Contract Clause of the United
States Constitution (the “Contract Clause”) and the
Collective Bargaining Clause of the Commonwealth
Constitution (the “Collective Bargaining Clause”). (Id.
¶¶ 21, 35.)
Plaintiffs’ Amended Complaint contains four
Prayers for Relief. (Id. ¶¶ 138-45.) The First and Second Prayers for Relief seek an order declaring the
Challenged Legislation null and void as violative of
Plaintiffs’ rights under the Contract Clause and Collective Bargaining Clause, respectively. (Id. ¶¶ 13841.) The Third and Fourth Prayers for Relief, which are
predicated on those same alleged constitutional violations, request awards of compensatory damages, punitive damages, costs, and attorneys’ fees. (Id. ¶¶ 14245.) Plaintiffs allege that the Ofﬁcial Defendants other
than the Governor are “empowered to implement,” variously, the SIFC budget, the Commonwealth budget,
the ﬁscal plans, and Act No. 26-2017. (Id. ¶¶ 43-47.)
II.
DISCUSSION
Defendants move pursuant to Rule 12(b)(1) to dismiss certain of Plaintiffs’ claims for lack of subject
matter jurisdiction, and pursuant to Rule 12(b)(6) to
dismiss the Amended Complaint in its entirety for

App. 39
failure to state a claim upon which relief may be
granted. Defendants argue that (i) Plaintiffs’ claims for
declaratory relief are moot to the extent they challenge
the provisions of Act No. 66-2014, Act No. 3-2017, and
Act No. 8-2017 that affect fringe beneﬁts guaranteed
by the CBAs, because Act 26-2017 incorporates or vacates the relevant provisions of the earlier legislation;
(ii) Plaintiffs fail to state a claim under the Contract
Clause; and (iii) Plaintiffs’ claims under the Collective
Bargaining Clause are time barred and fail to state a
cognizable claim. The Oversight Board also asserts
that Section 105 of the Puerto Rico Oversight, Management, and Economic Stability Act (“PROMESA”)8 precludes all of Plaintiffs’ claims against it and its
members. Additionally, the Government Ofﬁcials contend that Plaintiffs lack standing under Article III of
the United States Constitution to sue them because
Plaintiffs have not alleged any actions by those ofﬁcials that have caused Plaintiffs harm that would be
redressed by the relief sought in this adversary proceeding. As courts presented with motions to dismiss
under both Rules 12(b)(1) and 12(b)(6) should ordinarily decide jurisdictional questions before addressing
the merits, Deniz v. Municipality of Guaynabo, 285
F.3d 142, 149 (1st Cir. 2002), the Court begins its analysis with Defendants’ argument regarding mootness
under Rule 12(b)(1).

8

PROMESA is codiﬁed at 48 U.S.C. § 2101 et seq. References
to “PROMESA” sections in this Opinion and Order are to the uncodiﬁed version of the statute.

App. 40
A. Rule 12(b)(1): Subject Matter Jurisdiction—
Mootness
Defendants argue that Plaintiffs’ claims for declaratory relief as to Act No. 662014, Act No. 3-2017,
and Act No. 8-2017 are moot to the extent that they
affect fringe beneﬁts guaranteed by the CBAs, because
“those laws have been superseded by [Act No.] 262017.” (Oversight Board’s Mot. to Dismiss at 10.)
Hence, Defendants contend, there is no live controversy regarding the parties’ obligations with respect to
fringe beneﬁts independent of Act No. 26-2017, and
any declaration concerning such obligations would be
an advisory opinion.
Challenges to the Court’s subject matter jurisdiction on mootness grounds are properly asserted under
Rule 12(b)(1). See D.H.L. Assocs., Inc. v. O’Gorman, 199
F.3d 50, 54 (1st Cir. 1999). Although the party invoking
the jurisdiction of a federal court bears the burden of
proving the existence of such jurisdiction, Johansen v.
United States, 506 F.3d 65, 68 (1st Cir. 2007), “[t]he
burden of establishing mootness rests with the party
invoking the doctrine.” Am. Civil Liberties Union of
Mass. v. U.S. Conference of Catholic Bishops, 705 F.3d
44, 52 (1st Cir. 2013). “A case is moot where it is ‘impossible for a court to grant any effectual relief whatever to the prevailing party.’ ” Massachusetts v. United
States Dep’t of Health & Human Servs., 923 F.3d 209,
220 (1st Cir. 2019) (quoting Chaﬁn v. Chaﬁn, 568 U.S.
165, 172, 133 S. Ct. 1017, 185 L. Ed. 2d 1 (2013)). Mootness review is grounded in the “case or controversy”
requirement under Article III of the United States

App. 41
Constitution, U.S. Const. art. III, § 2, cl. 1, and “ensures
that courts do not render advisory opinions.” Id. (quoting Overseas Military Sales Corp. v. Giralt-Armada,
503 F.3d 12, 16-17 (1st Cir. 2007)). “For declaratory
relief to withstand a mootness challenge, the facts
alleged must ‘show that there is a substantial controversy . . . of sufﬁcient immediacy and reality to warrant the issuance of a declaratory judgment.’ ” Id.
(quoting Preiser v. Newkirk, 422 U.S. 395, 402, 95 S. Ct.
2330, 45 L. Ed.2d 272 (1975)).
Here, there is not and cannot be a live controversy, either immediate or real, pertaining to Plaintiffs’ rights under any provisions of Act No. 66-2014,
Act No. 3-2017, and Act No. 8-2017 that have expressly
been either incorporated into or repealed by Act No. 262017. (See, e.g., Act 26-2017, Art. 1.02 (repealing all
laws applicable exclusively to fringe beneﬁts that are
contrary to the provisions of Act 26-2017).) Any declaration concerning the validity of such provisions would
thus amount to an impermissible advisory opinion. Accordingly, insofar as Plaintiffs seek a declaration that
incorporated or repealed provisions impair their CBAs
and constitutional rights, Defendants have met their
burden of demonstrating that such claims are moot. Cf.
Massachusetts, 923 F.3d at 221 (ﬁnding moot a challenge to the validity of federal agency rules that was
“made for the ﬁrst time after they ha[d] ceased to exist”); Catholic Bishops, 705 F.3d at 54 (vacating on
mootness grounds trial court’s declaratory judgment
with respect to expired federal government contract);
Gulf of Maine Fisherman’s All. v. Daley, 292 F.3d 84, 88

App. 42
(1st Cir. 2002) (“The promulgation of new regulations
and amendment of old regulations are among such
intervening events as can moot a challenge to the
regulation in its original form.”). The components of
Plaintiffs’ First and Second Prayers for Relief that
challenge the incorporated or repealed provisions of
Act No. 66-2014, Act No. 3-2017, and Act No. 8-2017 are
therefore dismissed for lack of subject matter jurisdiction pursuant to Rule 12(b)(1).
The Court now turns to the merits issues presented by Plaintiffs’ remaining claims.
B. Rule 12(b)(6): Failure to State a Claim
To survive a motion to dismiss for failure to state
a claim upon which relief can be granted pursuant to
Rule 12(b)(6), a complaint must plead “enough facts to
state a claim to relief that is plausible on its face.” Bell
Atlantic Corp v. Twombly, 550 U.S. 544, 570 (2007). The
Court accepts as true the non-conclusory factual allegations in the complaint and draws all reasonable inferences in the plaintiff ’s favor. Miss. Pub. Employees’
Ret. Sys. v. Boston Scientiﬁc Corp., 523 F.3d 75, 85 (1st
Cir. 2008). The court may consider “documents the authenticity of which are not disputed by the parties, . . .
documents central to the plaintiffs’ claim, . . . [and]
documents sufﬁciently referred to in the complaint.”
Id. at 86 (internal quotation marks and citation omitted). The complaint must allege enough factual content
to nudge a claim “across the line from conceivable to

App. 43
plausible.” Ashcroft v. Iqbal, 556 U.S. 662, 680 (2009)
(citing Twombly, 550 U.S. at 570).
1. Claims Against the Oversight Board (All
Prayers for Relief )
The Oversight Board argues that Section 105 of
PROMESA requires dismissal of Plaintiffs’ claims
against it. Under Section 105, the “Oversight Board,
its members, and its employees shall not be liable for
any obligation of or claim against the Oversight Board
or its members or employees or the territorial government resulting from actions taken to carry out
[PROMESA].” 48 U.S.C.A. § 2125 (West 2017). Plaintiffs do not dispute that Section 105 precludes their
claims against the Oversight Board and, indeed, suggest that they might withdraw them. Accordingly, insofar as Prayers for Relief One, Two, Three, and Four
are asserted against the Oversight Board, they are dismissed pursuant to Section 105 of PROMESA.
2. Claims Under the Contract Clause (First,
Third, and Fourth Claims for Relief )
As noted above, Plaintiffs’ First Prayer for Relief
seeks an order declaring that the Challenged Legislation “is null and void and violate[s] the Contract
Clause of the U.S. Constitution.” (Am. Compl. ¶¶ 13839.) The related Third and Fourth Prayers for Relief
seek compensatory damages, punitive damages,
costs, and attorneys’ fees based on Defendants’ alleged Contract Clause violations. (Id. ¶¶ 142-45.) The

App. 44
Constitution of the United States provides that “[n]o
State shall . . . pass any . . . Law impairing the Obligation of Contracts.” U.S. Const. art. I, § 10, cl. 1. The Contract Clause, by its terms, applies only to measures
that are state (or territory) laws. Although the language of the Contract Clause is “unequivocal,” it “does
not make unlawful every state law that conﬂicts with
any contract” and, in considering claims brought under
the Contract Clause, courts must “reconcile the strictures of the Contract Clause with the essential attributes of sovereign power necessarily reserved by the
States to safeguard the welfare of their citizens.”
United Auto., Aero., Agric. Impl. Workers of Am. Int’l
Union v. Fortuño, 633 F.3d 37, 41 (1st Cir. 2011) (internal quotation marks and citations omitted). In doing
so, courts apply a two-pronged test: they examine ﬁrst
“whether the state law has operated as a substantial
impairment of a contractual relationship,” and then, if
the law has, “whether the impairment was reasonable
and necessary to serve an important government purpose.” Id. When a plaintiff brings suit against a state
or territory for impairing a contract to which the governmental unit is a party, the plaintiff bears the burdens of pleading and proof as to both prongs of the
Contract Clause analysis. Id. at 43. In seeking dismissal of Plaintiffs’ claims under the Contract Clause, Defendants argue principally that Plaintiffs have failed
to meet their burden of pleading facts sufﬁcient to
show that the Challenged Legislation does not serve
an important governmental purpose and is not reasonable and necessary under the circumstances.

App. 45
With respect to the ﬁrst prong of the Contract
Clause analysis, the Court assumes for purposes of the
instant motion practice only that Plaintiffs have adequately pleaded substantial impairment of the CBAs
by the Challenged Legislation.9 See Ambac Assurance
Corp. v. Commonwealth of P.R. (In re Fin. Oversight &
Mgmt. Bd. for P.R.), 297 F. Supp. 3d 269, 288 (D.P.R.
2018) (assuming arguendo “as did the First Circuit in
Fortuño, that [the] [p]laintiff ha[d] pled the requisite
substantial impairment” and evaluating the remaining components of the plaintiff ’s Contract Clause
claim), aff ’d, 927 F.3d 597 (1st Cir. 2019). Thus, the
Court proceeds directly to consideration of the second
prong—whether the Challenged Legislation is reasonable and necessary to serve an important government
purpose.
The First Circuit considers “the reasonableness
inquiry” to “ask[ ] whether the law is reasonable in
light of the surrounding circumstances,” while “the necessity inquiry focuses on whether Puerto Rico imposed a drastic impairment when an evident and more
moderate course would serve its purposes equally
well.” Fortuño, 633 F.3d at 45-46 (internal quotation
marks, citations, and brackets omitted). In analyzing
9

The Oversight Board appears to concede that Plaintiffs
have met their pleading burden as to the substantial impairment
element of their Contract Clause claims with respect to at least
some claimed impairments. (See Oversight Board’s Mot. to Dismiss at 12-13 (“Some of the CBA provisions Plaintiffs cite are, on
the face of the Complaint, not substantially impaired at all, and,
in the appropriate procedural posture, the Oversight Board will
dispute allegations of other impairments.”).)

App. 46
these questions, courts may consider “whether the act
(1) was an emergency measure; (2) was one to protect
a basic societal interest, rather than particular individuals; (3) was tailored appropriately to its purpose;
(4) imposed reasonable conditions; and (5) was limited
to the duration of the emergency.” Id. at 46. “Where the
state [or territory] is alleged to have impaired a contract to which it is a party, ‘less deference to a legislative determination of reasonableness and necessity is
required, because the State’s self-interest is at stake.’ ”
Id. at 41 (citation omitted). However, “less deference
does not imply no deference,” and “the state’s judgment
that the impairment was justiﬁed is afforded meaningful deference.” Id. at 45 (citation omitted). Plaintiffs’
unsupported contention that reasonableness and necessity can be found only where the challenged measure is “the only way in which the government can
actually save money and have a signiﬁcant impact in
restoring and helping the ﬁscal crisis the Commonwealth is going through” must therefore be rejected.
(See Am. Compl. ¶ 124; Omnibus Opposition to Defendants’ Motions to Dismiss (Docket Entry No. 31, the “Opposition”) at 28.) Plaintiffs likewise err in asserting
that the “reasonable and necessary” inquiry is “required to be evaluated as [a] question[ ] of fact in a trial
. . . and [is] impossible to rule upon without expert
witness testimony.” See, e.g., Fortuño, 633 F.3d at 44
(affirming dismissal of Contract Clause claim under
Rule 12(b)(6) for failure to plead adequately that the
challenged measures were unreasonable and unnecessary).

App. 47
Plaintiffs have failed to plead facts from which
this Court can infer that the Challenged Legislation
was not reasonable and necessary to serve an important government purpose. First, the Amended Complaint contains no factual proffers controverting the
recitations in the Challenged Legislation that the statutes serve the important general government purpose
of addressing the Commonwealth’s ﬁscal crisis as well
as the more speciﬁc objectives of “devis[ing] a plan to
deal with the consequences of the ﬁscal and economic
crisis of the downgrading of Puerto Rico’s credit rating”
(Act No. 66-2014 at 1), “ensur[ing] that the Government of Puerto Rico continues operating and offering
essential services to the citizens” (Act No. 3-2017 at 1),
“facilitat[ing] the transfer of employees” (Act No. 82017 at 2), “interconnect[ing] all the agencies and public corporations” (id.), “encourag[ing] mobility for the
continuity of . . . public services” (id.), “guarantee[ing]
the continuity of the jobs of each public servant in career ofﬁce” (id.), complying with the 2017 ﬁscal plan
(Act No. 26-2017 at 7), and ensuring that the Commonwealth has “sufﬁcient liquidity to be able to pay the
payroll of public employees and to pay for the essential
services it offers its citizens” (id.). See Fortuño, 633
F.3d at 44 (quoting with approval the Second Circuit’s
statement in Buffalo Teachers Fed’n v. Tobe, 464 F.3d
362, 368 (2d Cir. 2006), that “plaintiffs have the burden
of proof on [the issue of motivation by self-interest as
opposed to the general welfare] because the record of
what and why the state has acted is laid out in committee hearings, public reports, and legislation, making what motivated the state not difﬁcult to discern”).

App. 48
Courts, moreover, routinely consider the goal of improving a government’s ﬁnancial condition an important government purpose in the Contract Clause
context. See Buffalo Teachers, 464 F.3d at 368 (“The
New York legislature had a legitimate public purpose
in passing the Act and its wage freeze power. It is not
disputed that Buffalo was suffering at the time, and
continues to suffer, a ﬁscal crisis.”); Baltimore Teachers
Union, Am. Fed’n of Teachers Local 340, AFL-CIO v.
Mayor & City Council of Balt., 6 F.3d 1012, 1019 (4th
Cir. 1993) (“[E]nsuring the ﬁnancial integrity of the
[c]ity is a significant public purpose.”); cf. Ambac, 297
F. Supp. 3d 288-89 (plaintiff ’s complaint failed to
demonstrate that addressing the Commonwealth’s
“ﬁscal, public health, safety, welfare and recovery concerns” was not an important government purpose); Fortuño, 633 F.3d at 46-47 (implying that the reduction of
a $3.2 billion Commonwealth deﬁcit constitutes an important government purpose). Plaintiffs’ sole argument challenging the government purposes proffered
by Defendants—that Act 26-2017 was intended merely
to “mak[e] all employees equal[,]” (Opp’n at 28)—mischaracterizes the cited statutory provision and overlooks the myriad of goals described in and advanced by
that statute and the other Challenged Legislation, and
is therefore unavailing to fulﬁll Plaintiffs’ burden as to
the ﬁrst prong of the test.
Second, the Amended Complaint lacks sufﬁcient
factual content to demonstrate that the Challenged
Legislation was not reasonable and necessary to accomplish the purposes identiﬁed by the Legislative

App. 49
Assembly. Plaintiffs allege that “[t]here are many
other ways in which the [Commonwealth] [g]overnment can obtain funds in the midst of this fiscal crisis, which do not have to impair the rights of the
[SIFC] employees.” (Am. Compl. ¶ 125.) The Amended
Complaint proposes the following “possible options the
Commonwealth [g]overnment has that do not include
taking away legal contractual rights of [SIFC] employees”: (i) “[i]ncreas[ing] . . . compliance and revenue
collection across the major tax lines (personal income
tax, corporate income tax, and SUT)”; (ii) “[r]educ[ing]
or eliminat[ing] . . . useless credits or incentives”;
(iii) taking “rightsizing measures within the instrumentalities of the Commonwealth that do not operate
as private businesses or enterprises”; and (iv) “[Alarming, develop[ing] and invest[ing] in economic growth
projects to increase revenues and collections.” (Id.
¶ 128.) These allegations as to alternative measures
are, however, insufﬁciently speciﬁc to carry Plaintiffs’
burden of alleging facts that could, if taken as true,
demonstrate that the measures imposed by the Challenged Legislation are not reasonable and necessary to
advance the Legislative Assembly’s stated objectives
of addressing the Commonwealth’s fiscal crisis and
making its public-sector workforce more flexible. Nor
does the Amended Complaint proffer any facts from
which the Court could determine that tax reform,
“rightsizing” measures, and “economic growth projects” sufficient to obviate the need for the measures
imposed by the Challenged Legislation could feasibly

App. 50
be undertaken.10 See Ambac, 297 F. Supp. 3d at 288
(dismissing under Rule 12(b)(6) Contract Clause claim
challenging Act No. 26-2017, among other Commonwealth statutes, where the plaintiff “fail[ed] to plead
any factual content suggesting that ‘other available alternatives with lesser impact to the paramount constitutional rights affected’ might have existed that would
ultimately have been ‘a more moderate course of action’ that would serve the stated purposes of the relevant actions ‘equally well’ (quoting Fortuño, 633 F.3d
47)); see also Trinidad Hernandez v. ELA, 188 D.P.R.
828 (P.R. 2013) (Transl. Mot., Ex. 7 at 4-7) (dismissing
federal and Commonwealth Contract Clause claims
seeking invalidation of pension reform legislation
where the plaintiffs failed to plead facts showing that
proposed alternatives were feasible and less burdensome than the measures imposed by the challenged
statute). Plaintiffs’ proposed alternative solutions are
merely generic measures for increasing revenue that
could, in theory, apply to any government entity under
any circumstances. Thus, Plaintiffs have failed to allege plausibly that the Challenged Legislation was unreasonable or unnecessary, particularly in light of the
“meaningful deference” that must be afforded to the
Legislative Assembly’s judgment that the impairments

10

Also absent from the Amended Complaint are any allegations suggesting that Act No. 66-2014, Act No. 3-2017, Act No. 82017, and Act No. 26-2017 were not emergency measures. See
Fortuño, 633 F.3d at 46. Nor do Plaintiffs contend that the Challenged Legislation was intended to protect particular individuals
rather than basic societal interests. See id.

App. 51
to the CBAs here were justiﬁed. See Fortuño, 633 F.3d
at 44.
Plaintiffs’ reliance on this Court’s partial denial of
a motion to dismiss the complaint in Union de Trabajadores de la Industria Eléctrica y Riego, Inc. v.
Puerto Rico Elec. Power Auth., Adv. Proc. No. 17-229
(“UTIER”)—another adversary proceeding before this
Court in which a labor union challenged Act No. 662014, Act No. 3-2017, Act No. 8-2017, and Act No. 262017—in arguing the sufﬁciency of their own pleading
is misplaced. The proposed alternative measures described in the complaint in UTIER differed materially
from those pled here. The measures proposed in the
UTIER complaint were targeted to PREPA, the particular government entity involved, and purported to address particular components of PREPA’s operations
that were at least conceivably ripe for improvement:
(i) reexamining subsidies extended to a high percentage of PREPA customers; (ii) improving collection of
over $1 billion in accounts receivable; (iii) reevaluating
deals with petroleum suppliers who historically sold
PREPA fuel at inﬂated prices; (iv) improving PREPA’s
inefﬁcient auction process for contracts; and (v) targeting theft of electric service. See UTIER, Docket Entry
No. 38 ¶ 132. Here, by contrast, the proposed alternative measures enumerated in the Amended Complaint
are not speciﬁcally tailored to SIFC, and Plaintiffs fail
to plead any facts even suggesting how those proposed
measures could be implemented effectively. The UTIER
decision provides no basis for a conclusion that the
Amended Complaint is sufﬁcient in this regard.

App. 52
In sum, Plaintiffs have failed to meet their burden
of pleading facts sufﬁcient to allow the Court to draw
a reasonable inference that the Challenged Legislation
is unreasonable and unnecessary to effectuate an important government purpose. Accordingly, the First
Claim for Relief, and the Third and Fourth Claims for
Relief insofar as they are predicated on Contract
Clause violations, are dismissed for failure to state a
claim upon which relief can be granted. Cf. Asociación
de Empleados Gerenciales de la Corporación del Fondo
del Seguro del Estado v. Corporación del Fondo del Seguro del Estado, Case No. SJ2014CV00204(907), 2015
WL 4075649 (TCA) (P.R. Cir. May 29, 2015) (Motion of
Defendant the Financial Oversight and Management
Board for Puerto Rico to Submit Certiﬁed Translations
(Docket Entry No. 34, “Reply Translation,” Ex. 1 at 14))
(upholding judgment dismissing complaint challenging Act No. 66-2014 under the Commonwealth Constitution’s Contract Clause, ﬁnding that the statute had
“the legitimate and urgent purpose of preventing the
collapse of the Government of Puerto Rico’s ﬁnances
and guaranteeing basic and essential services for the
citizens,” and concluding that “the measures taken . . .
[were] undoubtedly reasonable and necessary to advance the important governmental purpose of saving
Puerto Rico’s ﬁnances”).

App. 53
3. Claims Under the Collective Bargaining
Clause of the Commonwealth’s Constitution (Second, Third, and Fourth Claims
for Relief )
Plaintiffs’ Second Prayer for Relief seeks an order
declaring that the Challenged Legislation “is null and
void and violates the Right to Collective Bargaining
of the Commonwealth’s Constitution.” (Am. Compl.
¶¶ 140-41.) The Third and Fourth Prayers for relief
seek compensatory damages, punitive damages, costs,
and attorneys’ fees based on Defendants’ alleged Collective Bargaining Clause violations. (Id. ¶¶ 142-45.)
Defendants move to dismiss each claim.
Section 17 of the Commonwealth Constitution—
the Collective Bargaining Clause—provides that
“[p]ersons employed by . . . agencies or instrumentalities of the government operating as private businesses or enterprises[ ] shall have the right to
organize and to bargain collectively with their employers through representatives of their own free choosing
in order to promote their welfare.” P.R. Const. art. II,
§ 17. Plaintiffs allege in the Amended Complaint that
the Challenged Legislation, “by vacating or eliminating the labor rights and beneﬁts already negotiated
under the [CBAs], and eliminating the right to negotiate the clauses impaired by such legislation, ha[s]
violated Plaintiffs [sic] members’ right to collective
bargain [sic]” under the Collective Bargaining Clause.
(Am. Compl. ¶ 135.) Defendants assert that Plaintiffs’
Collective Bargaining Clause claims must be dismissed as time barred under “the one-year limitations

App. 54
period in 31 L.P.R.A. § 5298 for constitutional claims
for impairment of property rights.” (Oversight Board’s
Mot. to Dismiss at 23.) Defendants also contend that,
in any event, Plaintiffs fail to allege plausibly that
the Challenged Legislation deprives Plaintiffs of their
right to bargain collectively.
31 L.P.R.A. § 5298 imposes a one-year statute of
limitations period—or “prescriptive” period—on actions brought under Commonwealth law to “recover or
retain possession” and to “demand civil liability for
grave insults or calumny, and for obligations arising
from [damage to another through] fault or negligence.”
Although the parties have not cited, and this Court has
not otherwise found, authority speciﬁcally establishing
the statute of limitations applicable to claims asserted
under the Collective Bargaining Clause, Commonwealth and federal courts have applied the one-year
statute of limitations under 31 L.P.R.A § 5298 to
claims arising from the deprivation of other rights secured by both the Commonwealth Constitution and the
United States Constitution. See, e.g., Plaza de Descuentos, S.E. v. E.L.A., 178 D.P.R. 777 (2010) (Transl.
Mot., Ex. 10 at 3-5) (applying one-year limitations period to federal and Commonwealth claims arising from
the “deprivation of private property for public uses”);
Velez-Velez v. Puerto Rico Highway & Transp. Auth.,
795 F.3d 230, 235 (1st Cir. 2015) (applying one-year
limitations period to federal constitutional claims under 42 U.S.C. § 1983); Rivera-Torres v. Castillo, 109
F. Supp. 3d 477, 482 (D.P.R. 2015) (same). Defendants
contend that the one-year limitations period under 31

App. 55
L.P.R.A. § 5298 should apply because Plaintiffs’ Collective Bargaining Clause claims likewise allege impairment of constitutional rights. Given the similar nature
of Plaintiffs’ claims under the Collective Bargaining
Clause and those to which courts have previously applied 31 L.P.R.A. § 5298, this Court applies a one-year
statute of limitations here as well.
Consistent with these principles and precedents,
the parties’ arguments here assume that the relevant
statute of limitations is one year. They differ, however,
on the point from which the statute of limitations is to
be measured. Plaintiffs argue that their Collective Bargaining Clause claims are timely because the damages
associated with such claims are continuous. Plaintiffs
assert that their claims continue to accrue under the
“continuing tort doctrine” because Plaintiffs are “currently suffering damages that will not cease until the
cause that originated them cease[s] to exist.” (Opp’n at
31.) Defendants contend that facial constitutional
challenges to legislation, like Plaintiffs’ Collective Bargaining Clause claims here, accrue when the legislation is enacted, and the Challenged Legislation does
not implicate the continuing violation doctrine.
In the First Circuit, “state law governs ‘when a
state-created cause of action accrues.’ ” Quality Cleaning Prod. R.C., Inc. v. SCA Tissue N. Am., LLC, 794 F.3d
200, 204 (1st Cir. 2015). Under Puerto Rico law, claims
subject to the one-year statute of limitations established by 31 L.P.R.A. § 5298 accrue when a plaintiff
has “both notice of her injury and knowledge of the
likely identity” of the person or entity that caused it.

App. 56
Espada v. Lugo, 312 F.3d 1, 3 (1st Cir. 2002); see Rivera
Ruiz v. Municipio Autonomo de Ponce, 196 D.P.R. 410
(P.R. 2016) (Reply Transl., Ex. 4, “Rivera Ruiz,” at 5)
(“As a general rule, the one year prescriptive term provided in . . . 31 L.P.R.A. § 5298[ ] begins to run from the
time the aggrieved party had—or should have had—
knowledge of the damage suffered and was in a position to exercise his cause of action.”). Nevertheless, the
Puerto Rico Supreme Court has held that when a
plaintiff alleges a “tortious or negligent act or omission
of a continuing nature, the prescriptive term to ﬁle an
action seeking compensation begins to run when the
last acts or omissions are veriﬁed or the deﬁnitive result is produced,” whichever is later. Rivera Ruiz at 14.
This principle “does not rest on the intrinsic nature of
the harm caused by the disturbance, but on the continuing or progressive nature of the cause that originates
it, which constantly renews the damaging action.” Id.
at 8 (quoting Arcelay v. Sanchez, 77 D.P.R. 824, 839
(1955)). Federal courts in this Circuit applying similar
principles to claims under both Puerto Rico law and
federal law have held that a continuing violation occurs only when the unlawful acts are continuous and
not merely when there are continual harmful effects
from some discrete act. See Muniz-Rivera v. United
States, 204 F. Supp. 2d 305, 315 (D.P.R. 2002), aff ’d,
326 F.3d 8 (1st Cir. 2003); M.R. (Vega Alta), Inc. v. Caribe Gen. Elec. Prod., Inc., 31 F. Supp. 2d 226, 240
(D.P.R. 1998) (noting that “Puerto Rico courts, as well
as courts of other jurisdictions, have consistently held
that the continuing harmful effect of the original tort
does not constitute a continuing tort for purposes of

App. 57
tolling the statute of limitations” and collecting cases);
Monteferrante v. Williams-Sonoma, Inc., 241 F. Supp.
3d 264, 272 (D. Mass. 2017) r[C]ourts must be careful
to differentiate between [the unlawful] acts and the ongoing injuries which are the natural, if bitter, fruit of
such acts,’ which do not restart the clock.” (second alteration in original) (quoting Gilbert v. City of Cambridge, 932 F.2d 51, 58 (1st Cir. 1991))).
Although it appears that neither the Supreme
Court of Puerto Rico nor any lower Commonwealth
court has spoken on the precise issue currently before
this Court, various federal courts of appeals, including
the First Circuit, have held that claims asserting facial
challenges to legislative enactments accrue upon the
enactment or effective date of the law in question.11 See
Asociacion de Suscripcion Conjunta del Seguro de Responsabilidad Obligatorio v. Juarbe-Jimenez, 659 F.3d
42, 50 (1st Cir. 2011) (holding that “a facial takings
challenge accrues at the time the offending statute or
regulation is enacted or becomes effective”); Colony
Cove Properties, LLC v. City of Carson, 640 F.3d 948,
956 (9th Cir. 2011) (“[T]he statute of limitations for facial challenges to an ordinance runs from the time of
adoption[.]”); Smith v. City of Enid, 149 F.3d 1151, 1154
(10th Cir. 1998) (“[T]he constitutional injury, the injury
which triggers the statute of limitations for purposes
11

Where the Puerto Rico Supreme Court has not spoken directly on a Puerto Rico law issue presented to a federal court, the
court should “ascertain the rule the state court would most likely
follow under the circumstances.” Quality Cleaning, 794 F.3d at
206 (citations omitted).

App. 58
of § 1983, occurred when the 1990 amendment became
law, not when the consequence of that constitutional
injury manifested itself ”). Juarbe-Jimenez, while not
necessarily controlling because it involved claims under the United States Constitution only, is factually
analogous to the instant case and instructive at the
very least. See Davila-Torres v. Feliciano-Torres, 924
F. Supp. 2d 359, 369 (D.P.R. 2013) (applying the same
statute of limitations principles, including the continuing violation doctrine, to claims brought under
the federal and Commonwealth constitutions); TonesSantiago v. Diaz-Casiano, 708 F. Supp. 2d 178, 186
(D.P.R. 2009) (in declining to exercise supplemental jurisdiction over claims brought under Puerto Rico law,
noting that the same statute of limitations analysis
that applied to the plaintiffs’ federal constitutional
claims would apply to their claims asserted under the
Commonwealth Constitution). In Juarbe-Jimenez, the
First Circuit emphasized that an anticipated decrease
in the plaintiff ’s revenue due to the challenged regulation was “simply a harmful effect of [its] passage,” and
thus application of the continuing violation doctrine
was not warranted. 659 F.3d at 52. The doctrine did
not apply, the court noted, “despite the fact that the
[plaintiff] did not know the precise dollar amount that
would be subject to the [challenged regulation] in future years,” because the plaintiff “was aware that the
[regulation] would operate automatically on all profits earned” after it came into effect. Id. Accordingly,
the Juarbe-Jimenez plaintiffs’ Takings Clause claim
accrued upon the regulation’s enactment and was

App. 59
precluded under the applicable statute of limitations.
See id.
Here, the Amended Complaint raises facial challenges to Act No. 66-2014, Act No. 3-2017, Act No. 82017, and Act No. 26-2017 by alleging that such laws
interfere with Plaintiffs’ right to bargain collectively
and thus violate Plaintiffs’ rights under the Commonwealth Constitution. Based upon Plaintiffs’ allegations
that the statutes in question changed the terms and
conditions of their employment, depriving them of
rights to various beneﬁts and of the right to collectively
bargain, any damages they may have sustained occurred as a direct consequence of the Challenged Legislation’s enactment and not due to any subsequent
conduct of Defendants. The enactment of Act No. 262017 was the last allegedly unlawful act, see Rivera
Ruiz at 14, and the alleged changes in employment
conditions and deprivation of collective bargaining
rights that immediately followed were the “deﬁnitive
result[s]” of that act, see id. The consequences that follow from such results, like the Juarbe-Jimenez plaintiffs’ anticipated loss of revenues, are “simply . . .
harmful effect[s]” of the Challenged Legislation’s passage. See 659 F.3d at 52. Plaintiffs’ contention that
their damages increase “each day under the mandates
of the Challenged Legislation,” (Opp’n at 31) is thus of
no moment in determining when the statute of limitations accrues. See Rivera Ruiz at 8 (emphasizing that
application of the continuing violation doctrine does
not turn on the “nature of the harm caused by the disturbance” (quoting Arcelay, 77 D.P.R. at 839)). Absent

App. 60
a plausible allegation that Defendants’ actions subsequent to the Challenged Legislation’s enactment have
caused Plaintiffs to incur damages, the continuing violation doctrine is inapplicable.12 Further, no allegations in the Amended Complaint or other material in
the record indicate that Plaintiffs were unaware of the
effects of any of the Challenged Legislation at the time
each law was enacted. Hence, at the latest, Plaintiffs’
Collective Bargaining Clause claims accrued on April
29, 2017, the date Act No. 262017, the most recent of
the four laws, was enacted. Plaintiffs did not initiate
the instant case until July 25, 2018—more than one
year after the enactment of Act 26-2017 and therefore
after the statute of limitations had expired.
Accordingly, the Second Claim for Relief, as well as
the Third and Fourth Claims for Relief insofar as they
are predicated on Collective Bargaining Clause violations, are dismissed as time barred.

12

The facts of Rivera Ruiz, the sole decision cited by Plaintiffs in support of their theory that the continuing violation doctrine saves their Collective Bargaining Clause claims, are readily
distinguishable. The plaintiffs in that case did not, as Plaintiffs
have done here, challenge the constitutionality of a statute or
regulation; rather, they alleged that a municipality’s repeated
failure to take steps to protect against recurring flood damage constituted tortious behavior that caused them continuous
damages. Id. at 2-3. Plaintiffs’ Amended Complaint lacks any
analogous allegations of continued conduct or omissions by Defendants.

App. 61
In light of the foregoing conclusions, the Court
need not address the parties’ additional arguments.13
III.
CONCLUSION
For the foregoing reasons, the Motions are
granted. Plaintiffs’ First and Second Prayers for Relief
are dismissed pursuant to Rule 12(b)(1) insofar as they
assert claims for declaratory relief concerning Act No.
66-2014, Act No. 3-2017, and Act No. 8-2017, and the
remainder of Plaintiffs’ claims are dismissed pursuant
to Rule 12(b)(6) for failure to state a claim upon which
relief may be granted. This Opinion and Order resolves
Docket Entry Nos. 22 and 25. The Clerk of Court is directed to enter judgment accordingly and close this adversary proceeding. The Clerk of Court is also directed
to update the case caption as set forth above, for the
reasons detailed in footnote 2 above.

13

Because the Government Ofﬁcials are named in their ofﬁcial capacities only, the claims asserted against them are construed as claims against the Commonwealth and SIFC. See Am.
Policyholders Ins. Co. v. Nyacol Prod., Inc., 989 F.2d 1256, 1259
(1st Cir. 1993) (“Generally, a suit against an ofﬁcer in the ofﬁcer’s
ofﬁcial capacity constitutes a suit against the governmental entity which the ofﬁcer heads.”). Consequently, in light of this
Court’s determination that Plaintiffs’ Amended Complaint should
be dismissed pursuant to Rule 12(b)(6) as against the Commonwealth and SIFC, the Court need not address the Government
Ofﬁcials’ arguments regarding the insufﬁciency of Plaintiffs’ allegations against them.

App. 62
SO ORDERED
Dated: September 27, 2019
/s/ Laura Taylor Swain
LAURA TAYLOR SWAIN
United States District Judge

App. 63
APPENDIX D
UNITED STATES DISTRICT COURT
DISTRICT OF PUERTO RICO
----------------------------------------------------- x
In re:
PROMESA
THE FINANCIAL OVERSIGHT
Title III
AND MANAGEMENT BOARD
Case No.
FOR PUERTO RICO,
17-3283 (LTS)
as representative of
(Jointly
THE COMMONWEALTH
Administered)
OF PUERTO RICO, et al.,
Debtors.
----------------------------------------------------- x
HERMANDAD DE EMPLEADOS
DEL FONDO DEL SEGURO DEL
ESTADO, INC.; UNIÓN DE MEDICOS Adv. Proc. No.
DE LA CORPORACIÓN DEL FONDO 18-091-LTS
DEL SEGURO DEL ESTADO CORP.,
Plaintiffs,
v.
COMMONWEALTH OF PUERTO RICO;
THE FINANCIAL OVERSIGHT AND
MANAGEMENT BOARD FOR PUERTO
RICO; STATE INSURANCE FUND
CORPORATION; JAVIER RIVERA
RÍOS; HON. WANDA VÁZQUEZ
GARCED; OMAR J. MARRERO;
HON. FRANCISCO PARÉS ALICEA;
JOSÉ IVÁN MARRERO ROSADO,
Defendants.
----------------------------------------------------- x

App. 64
JUDGMENT
(Filed Sep. 27, 2019)
Pursuant to the “Opinion and Order Granting the
Motions to Dismiss Plaintiffs’ First Amended Adversary Complaint Pursuant to Fed. R. Civ. P. 12(B)(1) and
(B)(6)” issued on September 27, 2019 (Docket Entry
#39), Judgment is entered closing the above captioned
adversary proceeding.
SO ORDERED
Dated: September 27, 2019
s/ Carmen Tacoronte
Carmen Tacoronte
Deputy Clerk

App. 65
APPENDIX E
United States Court of Appeals
For the First Circuit
-----------------------------------------------------------------------

No. 19-2028
IN RE: THE FINANCIAL OVERSIGHT AND
MANAGEMENT BOARD FOR PUERTO RICO, AS
REPRESENTATIVE FOR THE COMMONWEALTH
OF PUERTO RICO; THE FINANCIAL OVERSIGHT
AND MANAGEMENT BOARD FOR PUERTO
RICO, AS REPRESENTATIVE FOR THE PUERTO
RICO HIGHWAYS AND TRANSPORTATION
AUTHORITY; THE FINANCIAL OVERSIGHT AND
MANAGEMENT BOARD FOR PUERTO RICO, AS
REPRESENTATIVE FOR THE PUERTO RICO
ELECTRIC POWER AUTHORITY (PREPA); THE
FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD FOR PUERTO RICO, AS REPRESENTATIVE
FOR THE PUERTO RICO SALES TAX FINANCING
CORPORATION, a/k/a Cofina; THE FINANCIAL
OVERSIGHT AND MANAGEMENT BOARD
FOR PUERTO RICO, AS REPRESENTATIVE
FOR THE EMPLOYEES RETIREMENT SYSTEM
OF THE GOVERNMENT OF THE
COMMONWEALTH OF PUERTO RICO,
Debtors.
-----------------------------------------------------------------------

App. 66
HERMANDAD DE EMPLEADOS DEL FONDO
DEL SEGURO DEL ESTADO, INC.; UNION DE
MEDICOS DE LA CORPORACION DEL FONDO
DEL SEGURO DEL ESTADO CORP. (UMCF SE),
Plaintiffs - Appellants,
v.
FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD; COMMONWEALTH OF PUERTO RICO;
STATE INSURANCE FUND CORPORATION;
JAVIER RIVERA RIOS, in his official capacity
as Administrator of the State Insurance Fund
Corporation; CHRISTIAN SOBRINO VEGA; JOSE
WAN MARRERO-ROSADO; TERESITA FUENTES;
WANDA VAZQUEZ-GARCED, in her official
capacity as Governor; OMAR J. MARRERO-DIAZ,
in his official capacity as Executive Director
of AAFAF; FRANCISCO PARES ALICEA,
in his official capacity as Secretary of Treasury,
Defendants - Appellees,
NATALIE A. JARESKO,
Defendant.
-----------------------------------------------------------------------

Before
Howard, Chief Judge, Lynch, Thompson,
Kayatta, and Barron, Circuit Judges.
-----------------------------------------------------------------------

App. 67
ORDER OF COURT
Entered: December 11, 2020
The petition for rehearing having been denied by
the panel of judges who decided the case, and the petition for rehearing en banc having been submitted to
the active judges of this court and a majority of the
judges not having voted that the case be heard en banc,
it is ordered that the petition for rehearing and the petition for rehearing en banc be denied.
By the Court:
Maria R. Hamilton, Clerk
cc:
Rolando Emmanuelli-Jimenez
Jessica Esther Mendez-Colberg
Hermann D. Bauer-Alvarez
Timothy W. Mungovan Ubaldo M. Fernandez
Stephen L. Ratner
John E. Roberts
Mark David Harris
Martin J. Bienenstock
Daniel Jose Perez-Refojos
Jonathan E. Richman
Guy Brenner
Peter W. Miller
Stuart A. Weinstein-Bacal
Javier A. Vega-Villalba
Luis C. Marini-Biaggi
Peter M. Friedman
John J. Rapisardi

App. 68
William J Sushon
Wandymar Burgos-Vargas
Carolina Velaz-Rivero

App. 69
APPENDIX F
RELEVANT CONSTITUTIONAL PROVISIONS
U.S. Const. art. I, § 10, cl. 1:
No state shall enter into any treaty, alliance, or confederation; grant letters of marque and reprisal; coin
money; emit bills of credit; make anything but gold and
silver coin a tender in payment of debts; pass any bill
of attainder, ex post facto law, or law impairing the obligation of contracts, or grant any title of nobility.

Ofﬁcial Translations of the Relevant Portions of
the Compensation System for Work Related-Accidents, Act No. 45 of April 18, 1935, as amended, 11
LPRA § 1 et seq.:
Section 6 I(B)1, (11 LPRA § 8):
Since the source of funds for the operation of the Commission is the State Insurance Fund Corporation,
which operates as a corporate instrumentality, pursuant to Act No. 130 of May 8, 1945, as amended [29
L.P.R.A. §§ 61 et seq.], and do not burden the General
Budget of Puerto Rico, the right of the employees pursuant to said sections to organize among themselves;
constitute, afﬁliate, or assist labor organizations; negotiate collectively, including the establishment of procedures to hear claims and grievances by means of
selected representatives, is hereby acknowledged. All
allegations regarding illegal practices shall be handled
by the Labor Relations Board.

App. 70
Section 6 II(y), (11 LPRA § 8):
All expenses incurred to carry out the work entrusted
by this Act to the Ofﬁce of the Administrator of the
State Insurance Fund and to the Industrial Commission, shall be charged to the State Insurance Fund.
Provided, That the budget of the Ofﬁce of the State Insurance Fund, after deducting the expenses for medical and hospital services, shall never exceed twentytwo percent (22%) of the total receipts from premiums
during the previous ﬁscal year.

